No.
IN THE SUPREME COURT OF THE UNITED STATES

In Re:

TYLER BOWYER, MICHAEL JOHN BURKE, NANCY COTTLE, JAKE
HOFFMAN, ANTHONY KERN, CHRISTOPHER M. KING, JAMES R. LAMON,
SAM MOORHEAD, ROBERT MONTGOMERY, LORAINE PELLEGRINO, GREG
SAFSTEN, SALVATORE LUKE SCARMARDO, KELLI WARD AND MICHAEL
WARD
Petitioners,
DOUG DUCEY, in his official capacity as Governor of the State of Arizona, and
KATIE HOBBS, in her capacity as Secretary of State of the State of Arizona,
Respondents
CERTIFICATE OF COMPLIANCE
The accompanying Emergency Petition Under Rule 20 For Extraordinary
Writ of Mandamus complies with the type-volume limitation. As required by
Supreme Court Rule 33.1(h), I certify that the document contains 8,450 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Respectfully submitted,
/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
Attorney for Plaintiff/Petitioners
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
Date: December 24, 2020

